 INDEPENDENT REVIEW OF THE DEFENSE FINANCE AND ACCOUNTING

   SERVICE COST COMPARISON STUDY OF CIVILIAN PAY FUNCTION



Report No. D-2001-173                        August 14, 2001




             Office of the Inspector General

                 Department of Defense

  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)

                      Inspector General, Department of Defense

                         400 Army Navy Drive (Room 801)

                             Arlington, VA 22202-4704


  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
FTE                   Full-Time Equivalent
MEO                   Most Efficient Organization
OMB                   Office of Management and Budget
PWS                   Performance Work Statement
                           INSPECTOR GENERAL 

                           DEPARTMENT OF DEFENSE 

                             400 ARMY NAVY DRIVE 

                        ARLINGTON, VIRGINIA 22202-4704 





                                                                        August 14, 2001
MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
               SERVICE
SUBJECT: 	 Independent Review of the Defense Finance and Accounting Service Cost
           Comparison Study of Civilian Pay Function
           (Report No. D-2001-173)

        We are providing this report for your information and use. This report is one in
a series on Defense agencies' performance of commercial activities. We conducted the
independent review in response to a request from the Defense Finance and Accounting
Service. No written response to this report was required, and none was received.
Therefore, we are publishing this report in flnal form.
       We appreciate the courtesies extended to the audit staff. For additional
information on this report, please contact Mr. Garold E. Stephenson at (703) 604-9332
(DSN 664-9332) (gstephenson@dodig.osd.mil) or Mr. Kent E. Shaw at (703) 604-9228
(DSN 664-9228) (kshaw@dodig.osd.mil). See Appendix C for the report distribution.
The audit team members are listed inside the back cover.


                                          4~"?~
                                        Thomas F. Gimble 

                                              Acting 

                                 Deputy Assistant Inspector General 

                                           for Auditing 

                       Office of the Inspector General, DoD

Report No. D-2001-173	                                                  August 14, 2001
  (Project No. D2000CH-0076.004)

       Independent Review of the Defense Finance and Accounting

         Service Cost Comparison Study of Civilian Pay Function


                                   Executive Summary


Introduction. We performed the independent review at the request of the Defense
Finance and Accounting Service. An independent review is required for each cost
comparison study conducted in accordance with Office of Management and Budget
Circular No. A-76. The Defense Finance and Accounting Service provides financial and
accounting services for DoD components and other Federal agencies. The Defense
Finance and Accounting Service announced the A-76 cost comparison study of the
civilian pay function in December 1997. At that time, 510.6 full-time equivalent
personnel performed the services included in the study. The Defense Finance and
Accounting Service, most efficient organization, included staffing of 399 full-time
equivalent personnel during the first performance period, with staffing decreases to
298 full-time equivalent personnel in performance period nine. The total estimated cost
for the most efficient organization proposal over the 9-year performance period was
$250.0 million. The Defense Finance and Accounting Service received no private sector
or interservice support agreement proposals to perform the civilian pay function. On
June 25, 2001, the Under Secretary of Defense (Comptroller) announced that the MEO
would not be implemented and that an expanded review would be initiated to evaluate
alternatives and seek additional efficiencies in the end-to-end process for delivering
civilian personnel and pay services.

Objectives. The overall objective was to evaluate the reasonableness of the Defense
Finance and Accounting Service in-house cost estimate for performing the civilian pay
function. Specific objectives of the independent review were to determine whether:

     •	 data in the management plan reasonably established the Government's ability to
        perform work requirements in the performance work statement with resources
        provided by the most efficient organization, and

     •	 the Government cost estimates are fully justified and calculated in accordance
        with procedures described in part II of the Office of Management and Budget
        Circular No. A-76 Supplemental Handbook and the DoD A-76 Costing Manual.

The independent review is a management control procedure for ensuring the credibility of
the most efficient organization; the reliability and accuracy of the amounts presented on
the cost comparison form; and the credibility, impartiality, and fairness of the A-76
process. Because this was an independent review under A-76 rules, we did not review
the management control program.
Results. The independent review of the Defense Finance and Accounting Service
competitive sourcing study of the civilian pay function concluded that:

     •	 the management plan reasonably established the Government's ability to
        perform work requirements of the performance work statement within resources
        provided by the most efficient organization, and

     •	 the Government cost estimates entered on the cost comparison form were fully
        justified and calculated in accordance with procedures described in part II of the
        Office of Management and Budget Circular No. A-76 Revised Supplemental
        Handbook and the DoD A-76 Costing Manual.

The independent review identified the need for changes to the management plan and the
Government cost estimates. We discussed the needed changes with Defense Finance and
Accounting Service management and they made the changes prior to the completion of
the independent review. See the Finding section for a discussion of the independent
review.

Summary of Recommendations. Because the Defense Finance and Accounting
Service changed the management plan and the cost estimates prior to completion of the
independent review, we made no recommendations in this report.

Management Comments. We provided a draft of this report on July 2, 2001. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




                                            ii

Table of Contents


Executive Summary                                                i

Introduction
     Background                                                  1
     Objectives                                                  2

Results
     Results of Independent Review                               4

Appendixes
     A. Audit Process
         Scope and Methodology                                   7
     B. Under Secretary of Defense (Comptroller) Direction on
         Implementation of Civilian Pay Function                10
     C. Report Distribution                                     11
Background

    In response to the November 1997 Defense Reform Initiative Report, the Defense
    Finance and Accounting Service (DFAS) announced its decision to perform an
    Office of Management and Budget (OMB) A-76 study on its civilian pay function
    in December 1997. At that time, the function included 510.6 full-time equivalent
    (FTE) employees from various locations in Charleston, South Carolina;
    Pensacola, Florida; and Denver, Colorado. DFAS developed a MEO of 399 FTE
    personnel during the first performance period, with staff decreases to 298 FTE
    personnel in performance period nine.

    OMB Circular A-76 and DoD Guidance. OMB Circular No. A-76,
    —Performance of Commercial Activities,“ August 4, 1983 (revised 1999),
    establishes Federal policy and guidance for determining whether commercial
    activities should be contracted out or performed in-house. The OMB Circular No.
    A-76 Revised Supplemental Handbook, March 1996 (updated through transmittal
    memorandum 20, June 1999), provides detailed guidance on cost comparison
    performance studies and the costs to include in the comparison of in-house and
    contractor cost proposals. DoD Instruction 4100.33, —Commercial Activities
    Program Procedures,“ September 9, 1985, and DoD Directive 4100.15,
    —Commercial Activities Program,“ March 10, 1989, implements the OMB
    Circular No. A-76 and the Revised Supplemental Handbook.

    Cost Comparison Process. The A-76 process consists of developing the
    performance work statement (PWS) and the management plan, submitting formal
    bids, and conducting the A-76 cost comparison. The management plan describes
    the Government‘s most efficient organization (MEO) and is the basis of the
    Government‘s in-house cost estimates. The process culminates in a cost
    comparison of the in-house estimate of Government performance of a commercial
    activity with the cost for contract performance of the commercial activity
    function, and a decision to perform the function with Government or contract
    employees. Experience has shown that public and private sector competitions for
    the performance of commercial activities result in costs avoided, usually through
    a reduction in personnel, whether the Government or the private sector wins the
    competitions. On March 13, 2001, the Deputy Under Secretary of Defense
    (Installations), now the Deputy Under Secretary of Defense (Environment and
    Installations), issued the A-76 Costing Manual. The guidance requires the use of
    new DoD A-76 costing software (win.COMPARE2) for all FY 2001 Circular A-
    76 studies, including the DFAS study of the civilian pay function.

    Independent Review. OMB Circular No. A-76 Revised Supplemental Handbook
    and DoD Instruction 4100.33 require that all competitive sourcing cost
    comparisons be reviewed and certified in writing by an impartial independent
    review officer organizationally independent of the commercial activity being
    studied and the activity preparing the cost comparison.




                                        1

     The independent review officer must certify that the data contained in the A-76
     management plan and attendant cost estimates reasonably establish the
     Government's ability to perform the PWS within the resources provided by the
     MEO.

     Defense Finance and Accounting Service. DFAS was established on
     January 15, 1991, to provide finance and accounting services to other DoD
     Components and Federal agencies under the direction, authority, and control of
     the Under Secretary of Defense (Comptroller). DFAS directs all finance and
     accounting requirements, systems, and functions for appropriated,
     nonappropriated, working capital, revolving, and trust fund activities, including
     security assistance. The civilian pay function pays about 700,000 DoD and
     non-DoD Federal employees.

     DFAS Request for Performance of Independent Reviews. On February 13,
     1998, DFAS requested that the Office of Inspector General, DoD, perform
     independent reviews for the following five A-76 studies:

        •	 Defense commissary agency accounting function,

        •	 transportation accounting function,

        •	 depot maintenance accounting function,

        •	 military retired and annuitant pay function, and

        •	 civilian pay function.

     In March 2000, DFAS announced that it was also conducting an A-76 cost
     comparison study of the security assistance accounting function. DFAS has
     completed the A-76 studies for the first three functions during FYs 1999 and
     2000. The military retired and annuitant and the civilian pay studies will be
     completed in FY 2001, and the security assistance accounting study in FY 2002.

Objectives
     The overall objective was to evaluate the reasonableness of the in-house cost
     estimate for the DFAS competitive sourcing study for civilian payroll. Specific
     objectives of the independent review were to determine whether:

             •	 data in the management plan reasonably established the Government's
                ability to perform work requirements of the PWS within resources
                provided by the MEO, and

             •	 the Government cost estimates were fully justified and calculated in
                accordance with procedures described in part II of the OMB Circular
                No. A-76 Supplemental Handbook and the DoD A-76 Costing
                Manual.


                                          2

The independent review is a required management control procedure for ensuring
the credibility of the MEO; reliability and accuracy of the amounts presented on
the cost comparison form; and the credibility, impartiality, and fairness of the
A-76 process. See Appendix A for discussion of the audit scope and
methodology.




                                    3

           Results of Independent Review

           The independent review concluded that the management plan reasonably
           established the Government's ability to perform work requirements of the
           PWS within the resources provided by the MEO. The independent review
           also concluded that costs entered on the cost comparison form were
           justified and calculated in accordance within procedures described in part
           II of the OMB Circular No. A-76 Revised Supplemental Handbook. The
           independent review identified several necessary changes for the
           management plan and the in-house cost estimate, which were discussed,
           agreed upon, and completed by DFAS.

Amendments to the PWS
    The PWS document describes the technical, functional, and performance
    characteristics of the work to be performed, including the location, quality, and
    timeliness of work units. The PWS must be sufficiently comprehensive to ensure
    that in-house or contractor performance satisfies Government requirements and
    enables a comparison of Government cost estimates and contractor proposals.
    The PWS for civilian pay requires a service provider to provide payroll services
    to about 700,000 DoD and non-DoD civilian pay recipients. These services
    encompassed management of new and existing accounts, performance of
    customer service operations, pay operations, electronic data exchanges within
    financial institutions and other Federal organizations, generation and distribution
    of reports, and infrastructure support services. DFAS projects that civilian pay
    accounts may decline about four percent over the next 5 years, beginning in FY
    2001. The PWS that DFAS included in solicitation MDA220-00-R-6000, dated
    November 3, 2000, was the basis for the MEO and in-house cost estimate for the
    civilian pay function.

    DFAS issued five amendments to the solicitation that remedied the deficiencies in
    the PWS and accompanying technical exhibits.

           •	 Amendment 1, dated December 19, 2000, provided responses to
              vendor questions regarding the draft PWS, offered data regarding
              authorized staffing and budget, and provided additional information
              regarding oral proposals contained in paragraph L-4(a).

           •	 Amendment 2, dated January 26, 2001, extended the proposal closing
              date from February 9, 2001, to April 25, 2001.

           •	 Amendment 3, dated March 9, 2001, incorporated changes to the
              workload estimates and statistical data in attachment J.6-2, and
              provided staffing and budget information for the civilian pay function.

           •	 Amendment 4, dated March 16, 2001, made the bidder responsible for
              all postage expenses with the exception of the annual tax reporting
              information (IRS Form W-2). The amendment also clarified issues
              regarding Government-furnished equipment, facilities, and equipment,


                                         4

               and provided staffing data for Charleston, South Carolina; Denver,
               Colorado; and Pensacola, Florida; and the technical services
               organization.

           •	 Amendment 5, dated April 20, 2001, informed bidders that the
              Government would use win.COMPARE2 to prepare the in-house cost
              estimate and to perform the cost comparison between the MEO and the
              best contractor proposal.

Reasonableness of Management Plan and MEO
    The management plan is an analytical evaluation of an organization to determine
    the most economical method to accomplish the job. The management plan
    identifies essential functions and establishes performance factors, organization
    structure, staffing requirements, and operating procedures for the MEO. A MEO
    must be prepared for all competitive sourcing studies where the activity is
    performed by more than 10 FTE personnel. A goal in creating the MEO is to
    develop the best possible organization to accomplish the workload required in the
    PWS within as little resource consumption as possible and without sacrificing the
    quality level of products or services.

    The DFAS management plan and MEO dated March 19, 2001, consolidated the
    civilian payroll service functions performed at Denver, Colorado; Charleston,
    South Carolina; and Pensacola, Florida, into a single division at Pensacola. The
    MEO included 399 FTEs at the beginning of the first performance period, with a
    decline in staffing to 298 FTEs in performance period 9. On March 16, 2001, the
    Director, Military and Civilian Pay Operations, DFAS-Kansas City, Missouri,
    certified the MEO as the most efficient and cost effective organization fully
    capable of performing the scope of work and the tasks required by the PWS.

    We examined the supporting documentation and analysis for the management
    plan to determine whether it reasonably established the ability of the MEO to
    perform the requirements of the PWS. We suggested changes to the plan. On
    April 18, 2001, DFAS revised the management plan to:

           •	 show that the work performed in Denver, Colorado; and Charleston,
              South Carolina; would be moved to Pensacola, Florida;

           •	 explain the basis for the overtime required by the MEO;

           •	 identify the members of the MEO functional working group and detail
              their respective experience and authority; and

           •	 provide justification for the two contract manpower equivalent
              positions supporting the imaging support contract under the MEO
              subcontracts.

    After the changes, we concluded that the DFAS management plan reasonably
    established the Government‘s ability to perform work requirements of the PWS
    within the resources provided by the MEO.


                                        5

Adequacy of Government Cost Estimates
    The initial in-house cost estimate of $267,747,093 required the following
    adjustments.

    Inflation of Personnel Costs. Line 1 of the in-house cost estimate, —personnel
    costs,“ included positions that were miscoded as not subjected to an economic
    price adjustment, when they were subjected to economic price adjustments.
    Therefore, these costs were improperly inflated. Most of the positions were in the
    nonprofessional series, and therefore, subjected to the economic price adjustment
    clause in accordance with title 29, Code of Federal Regulations, part 541.
    Positions that are subject to economic price adjustments are only inflated to and
    through the end of the first performance period. As a result of this correction, line
    1, —personnel costs“ decreased by $13,229,417; line 3, —other specifically
    attributable costs,“ decreased by $92,606; and line 4, —overhead“ decreased by
    $1,587,531.

    Subcontract Costs. The MEO subcontract costs under line 3, —government-
    directed AIS maintenance,“ was estimated at the annual amount for the 6-month
    transition period rather than prorated. When this error was corrected, it reduced
    the MEO line 3, subcontract costs by $3,320,366.

    Postage Expense. The line 3, —other costs,“ category included an incorrect
    postage rate. The rate of $0.275 that DFAS used did not reflect the rate
    established by the United States Postal Service Ratefold Notice 123, January 7,
    2001. The ratefold notice increased the cost to $0.278 for basic automated first
    class letter-size postage not weighing over one ounce. The postage rate change
    plus associated inflation increased line 3 costs by $522,347.

    Revision of In-house Cost Estimate. DFAS presented a revised 9-year cost
    estimate of $250,039,522 on April 20, 2001, that corrected the costing errors. We
    concluded that the costs entered on the revised cost comparison form were fully
    justified and calculated in accordance with procedures described in part II of the
    OMB Circular No. A-76 Revised Supplemental Handbook and the DoD A-76
    Costing Manual. The Director, Contract Management Directorate, Office of the
    Assistant Inspector General for Auditing, signed the independent review
    certification on April 20, 2001.

Outsourcing Study Decision
    On June 25, 2001, the Under Secretary of Defense (Comptroller) directed that
    DFAS not implement the MEO and continue civilian pay operations at the current
    DFAS locations (Pensacola, Florida; Charleston, South Carolina; and Denver,
    Colorado). Additionally, the Comptroller requested that DFAS initiate an
    expanded review to evaluate alternatives and seek additional efficiencies in the
    end-to-end process for delivering civilian personnel and pay services. A copy of
    the Under Secretary‘s memorandum to DFAS is at Appendix B. On June 28,
    2001, the DFAS issued amendment 6 to the solicitation, which canceled the
    procurement.


                                          6

Appendix A. Audit Process

Scope and Methodology
    The independent review evaluated the DFAS PWS, management plan, and MEO,
    in-house cost estimate, and other supporting documentation to determine whether
    DFAS:

       •	 followed Federal and DoD guidance for preparing cost comparison
          competitions, and

       •	 had adequate documentation to support the in-house cost estimate and its
          supporting plans.

    We traced staffing in the MEO to the PWS requirements and examined the
    supporting documentation and analysis for reasonableness, clarity, and accuracy.
    We verified that costs on the cost comparison form were consistent with the
    workload in the PWS and the resources in the management study. We traced cost
    estimates to source documentation to ensure that the most significant cost
    elements were adequately supported. The review was limited to costs that could
    be estimated prior to bid opening and did not include contractor or inter-service
    support agreement price, or deduction for Federal income taxes (cost comparison
    form lines 9, 14 and 15) since DFAS received no private sector or inter-service
    support agreement proposals.

    Limitations to Scope. We did not review the management control program
    because the scope of the audit was limited to the independent review of the
    Government‘s management plan proposal.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measure:

           FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the force
           by exploiting the revolution in Military affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-2) FY 2001
           Subordinate Performance Goal 2.3: Streamline the DoD infrastructure
           by redesigning the Department‘s support structure and pursuing business
           practice reforms. (00-DoD-2.3) FY 2001 Performance Measure 2.3.3:
           Public/Private Sector Competitions.




                                        7

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in the DoD. This report provides coverage
of the Defense Financial Management and Defense Infrastructure high-risk areas.

Use of Computer-Processed Data. The independent review relied on computer-
processed cost comparison data calculated by the win.COMPARE2 software
program. This Air Force-developed program was released on March 13, 2001, for
mandatory use on all FY 2001 and later OMB A-76 cost comparison studies. The
Inspector General, DoD, performed a reliability assessment of win.COMPARE2
and published its report D-2001-127 —Data Reliability Assessment Review of
win.COMPARE2 Software,“ on May 23, 2001. The report concluded that general
and application controls over the software were adequate. It was determined,
through software testing, that computations and reports generated by
win.COMPARE2 were sufficiently reliable, accurate, and in accordance with the
OMB Circular No. A-76 Revised Supplemental Handbook and the DoD A-76
Costing Manual. Nothing came to our attention in this independent review that
caused us to doubt the reliability of the computer-processed data.

Use of Technical Assistance. We did not use technical assistance in the
performance of the independent review.

Audit Type, Dates, and Standards. Except as noted, we performed this
financial related audit from March 19, 2001, through April 20, 2001, in
accordance with auditing standards issued by the Comptroller General of the
United States as implemented by the Inspector General, DoD. We did our work
in accordance with generally accepted Government auditing standards except that
we were unable to obtain an opinion on our system of quality control. The most
recent external quality control review was withdrawn on March 15, 2001, and we
will undergo a new review. Because this was an independent review which
followed procedures under OMB Circular No. A-76, we:

   •	 did not follow-up on findings and recommendations from previous audits;

   •	 did not test for fraud, illegal acts or compliance with directives other than
      OMB A-76 and implementing DoD guidance;

   •	 did not examine the management control program although we did verify
      that MEO staff had the required independence and had no conflicts of
      interest; and

   •	 limited report distribution to the DFAS and Office of the Secretary of
      Defense components having oversight responsibilities for the OMB A-76
      Program.




                                     8

Contacts During the Audit. We interviewed DFAS and contractor personnel
that participated in the preparation or support for the competitive sourcing study.
Further details are available upon request.

Prior Coverage. No prior coverage has been conducted on the subject during the
last 5 years.




                                     9

Appendix B. Under Secretary of Defense
          (Comptroller) Direction on
          Civilian Pay Function Evaluation




                  10

Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Installations and Environment)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service-Cleveland Center
     Director, Defense Finance and Accounting Service-Charleston Operating Location
     Director, Defense Finance and Accounting Service-Pensacola Operating Location
   Director, Defense Finance and Accounting Service-Denver Center




                                          11

Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Richard B. Jolliffe
Garold E. Stephenson
Kent E. Shaw
Lawrence N. Heller
Catherine A. Annulis
Stephanie N. Lay
